March 2009
Report No. AUD-09-008


Material Loss Review of Silver State Bank,
Henderson, Nevada




              AUDIT REPORT
                                               Report No. AUD-09-008                                                                          March 2009

                                               Material Loss Review of Silver State Bank,
                                               Henderson, Nevada
                                               Audit Results
  Federal Deposit Insurance Corporation


Why We Did The Audit                           SSB failed primarily due to bank management’s high-risk business strategy. SSB pursued aggressive loan
                                               growth, concentrating in higher-risk CRE loans, and relied on funding from high-cost and volatile sources.
On September 5, 2008, the Nevada
                                               This business strategy, coupled with weak risk management practices and controls, left the bank unprepared
Financial Institutions Division (NFID)
                                               and unable to effectively manage operations in a declining economic environment. As loan losses increased,
closed the Silver State Bank (SSB),
                                               earnings and capital eroded. SSB experienced a severe liquidity crisis as depositors withdrew their funds,
Henderson, Nevada, and named the FDIC
                                               and the bank was at significant risk of not being able to meet its obligations when it was closed by the NFID.
as receiver. On September 30, 2008, the
                                               Specifically:
FDIC notified the Office of Inspector
General (OIG) that SSB’s total assets at
                                               Management. SSB’s board of directors allowed bank management to pursue a high-risk business strategy
closing were $1.887 billion, with a
                                               without adequate risk management practices and controls. Also, two individuals dominated bank
material loss to the Deposit Insurance
                                               management and controlled lending operations, thereby weakening board oversight. In addition, certain
Fund (DIF) estimated at $505 million. As
                                               compensation arrangements led to loan growth that was based on volume rather than quality. Management
of December 31, 2008, the estimated loss
                                               failed to effectively implement audit and examination recommendations or to ensure that, as the bank grew,
to the DIF increased to $553 million. As
                                               the sophistication of the bank’s risk identification and monitoring systems also expanded to effectively
required by section 38(k) of the Federal
                                               identify, measure, monitor, and control bank operations and risks.
Deposit Insurance Act, the OIG
conducted a material loss review of the
                                               Asset Quality. SSB concentrated its lending in higher-risk CRE loans in rapidly growing markets. SSB did
failure of SSB.
                                               not establish appropriate concentration limits or controls to mitigate risk. In addition, SSB had liberal loan
                                               underwriting standards, ineffective loan administration procedures, poor loan risk management practices, and
The audit objectives were to
                                               an inadequate ALLL. Additionally, the FDIC’s Division of Supervision and Consumer Protection (DSC)
(1) determine the causes of the financial
                                               also noted SSB’s inappropriate use and renewal of interest reserves when the underlying real estate projects
institution’s failure and resulting material
                                               were not performing as expected.
loss to the DIF and (2) evaluate the
FDIC’s supervision of the institution,
                                               Liquidity. SSB relied on high-cost volatile sources of funding, such as brokered deposits; time deposits of
including implementation of the Prompt
                                               $100,000 or more; Internet deposits; high-rate core deposits; and Federal Home Loan Bank borrowings to
Corrective Action (PCA) provisions of
                                               fund asset growth. Due to SSB’s pursuit of loan growth and high returns, any available funding source was
section 38, in order to make
                                               used to support the bank’s growth. Use of these volatile funding sources increased the bank’s risk that such
recommendations for preventing such loss
                                               sources would be quickly withdrawn in a deteriorating market or if the bank’s financial position declined.
in the future.
                                               According to FDIC personnel, it appeared that bank management did not understand the nature or level of
                                               risk that they created by using these volatile funding sources.
Background
                                               Supervision. The FDIC could have exercised greater supervisory concern and taken additional action to help
SSB was a state-chartered, nonmember           prevent the bank’s failure and/or to mitigate the potential level of losses incurred. Specifically, although the
bank that was established and insured on       FDIC identified SSB’s loan concentrations and funding sources as potential high-risk areas of concern in
July 1, 1996. SSB was headquartered in         examinations completed as early as 2005, the FDIC took limited actions to mitigate the bank’s aggregate
Henderson, Nevada. When the bank               level of risk exposure. With respect to SSB’s CAMELS ratings, DSC assigned SSB a composite 2 rating as
failed, it operated 17 full-service branches   recently as the May 2007 examination, and only first identified SSB as a potential supervisory concern during
in Nevada and Arizona.                         the March 2008 visit to SSB as part of DSC’s Commercial Real Estate Lending Visitation Program. DSC did
                                               not downgrade the bank’s ratings until the following examination in July 2008 – SSB’s last examination
SSB’s loan portfolio was concentrated in       before the bank failed. Further, aside from placing a Bank Board Resolution in 2005, which included
commercial real estate (CRE) loans, and        provisions related to CRE loan concentrations, the FDIC did not place any other supervisory or corrective
acquisition, development, and                  actions on the bank, including PCA directives.
construction (ADC) loans. The FDIC has
recognized the increased risk that these       Based on our review of the FDIC’s Reports of Examination (ROE) and available corresponding working
loans present to financial institutions and    papers and discussions with FDIC and NFID personnel, we identified several concerns regarding the FDIC’s
updated and re-emphasized bank                 supervision of SSB. Specifically, DSC could have done more to: recognize and/or analyze risk, set a proper
guidance in March 2008. In particular,         tone in the ROEs; appropriately consider risk in CAMELS ratings; ensure that proper controls and risk
this guidance re-emphasized the                limitation and/or mitigation strategies were established and appropriately implemented; identify in a timely
importance of strong capital, an adequate      manner SSB’s increasing risk profile, including concentrations in targeted market areas, as a potential
allowance for loan and lease losses            concern; and deal assertively with bank management on examination findings and recommendations.
(ALLL), and robust credit risk
management practices. The guidance also        The FDIC OIG plans to issue a series of summary reports on the material loss reviews it is conducting and
re-emphasized the interagency guidance         will make appropriate recommendations related to the failure of SSB and other FDIC-supervised banks at
provided to banks in December 2006 that        that time, including with regard to implementation of PCA provisions.
provided a framework for assessing CRE
concentrations. The FDIC also updated          Management Response
and re-emphasized CRE loan examination
guidance to examiners in July 2008. The        DSC provided a written response to the draft of this report. DSC generally agreed with the OIG’s
guidance focused on examiner                   conclusions regarding the causes of SSB’s failure. However, DSC stated that SSB management was
understanding of concentrations, market        receptive to examiner recommendations and identified positive actions that SSB took to improve its
conditions, underwriting and credit risk       operations in response to the 2007 examination. DSC indicated that asset quality deteriorated quickly in
management, and capital and ALLL               2008. Nonetheless, our view remains that DSC could have exercised greater supervisory concern and taken
adequacy.                                      additional action to address SSB conditions and risks.

   To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                          Page

BACKGROUND                                                          2

RESULTS IN BRIEF                                                    5

MANAGEMENT                                                          6
  SSB’s Management                                                  7
    High-Risk Business Strategy                                     7
    Dominant Bank Officials                                         7
    Executive Compensation                                          8
    Risk Management Controls                                        8
    Implementation of Examiner and Auditor Recommendations         10
  Examiner Concerns and Recommendations Regarding Management       11
  Regulatory Supervision Related to Management                     13

ASSET QUALITY                                                      15
  SSB’s Asset Quality                                              15
    CRE and Higher-Risk ADC Concentrations                         16
    Interest Reserve Loans                                         16
    Allowance for Loan and Lease Losses                            17
  Examiner Concerns and Recommendations Regarding Asset Quality    18
  Regulatory Supervision Related to Asset Quality                  20
    Loan Concentrations                                            20
    Interest Reserve Loans                                         20
    ALLL and Capital Adequacy                                      21

LIQUIDITY                                                          22
  SSB’s Liquidity                                                  22
    Volatile Liability Dependence                                  22
    Available Liquidity                                            23
  Examiner Concerns and Recommendations Regarding Liquidity        24
  Regulatory Supervision Related to Liquidity                      27
     Supervisory Guidance                                          27
     Bank Policy Parameters and Liquidity Contingency Plans        27
     Aggregate Non-core Funding Analysis                           28
     Capital Considerations                                        29

IMPLEMENTATION OF PCA                                              29


CORPORATION COMMENTS AND OIG EVALUATION                            30


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                            32
  2. GLOSSARY OF TERMS                                             34
  3. CORPORATION COMMENTS                                          35
  4. ACRONYMS IN THE REPORT                                        38
Contents                                                                     Page

TABLES
  1. Financial Condition of SSB                                                4
  2. Examiner Comments and Recommendations Regarding Management               12
  3. SSB’s Loan Classifications and ALLL                                      16
  4. SSB’s Concentrations (Loans and Leases as a Percent of Total Capital)    16
  5. SSB’s ALLL and Total Risk-Based Capital Ratios                           18
  6. Examiner Comments and Recommendations Regarding Asset Quality            19
  7. SSB’s Non-Core Funding Sources and Net Non-Core Dependency Ratios        23
  8. SSB’s Net Loans and Leases to Total Assets Ratio                         24
  9. Examiner Comments and Recommendations Regarding Liquidity                26
 10. SSB’s Policy Limitations in Comparison to Peer Group Averages            28


FIGURE
     SSB’s Key CAMELS Ratings                                                  3
Federal Deposit Insurance Corporation                                                           Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     March 30, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Silver State Bank,
                                          Henderson, Nevada
                                          (Report No. AUD-09-008)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Silver State
Bank (SSB), Henderson, Nevada. On September 5, 2008, the Department of Business
and Industry, Financial Institutions Division, State of Nevada (NFID), closed SSB and
named the FDIC as receiver. On September 30, 2008, the FDIC notified the OIG that
SSB’s total assets at closing were $1.887 billion, and the estimated loss to the Deposit
Insurance Fund (DIF) was $505 million. As of December 31, 2008, the estimated loss to
the DIF increased to $553 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act, section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations for preventing such loss in the future.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38.
Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2


1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition; management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    contains a glossary of terms; the FDIC’s response to the draft of this report is in
    Appendix 3; and acronyms used in the report are listed in Appendix 4.

    This report presents the FDIC OIG’s analysis of SSB’s failure and the FDIC’s efforts to
    ensure SSB’s management operated the bank in a safe and sound manner. The FDIC
    OIG plans to issue a series of summary reports on our observations on the major causes,
    trends, and common characteristics of financial institution failures resulting in a material
    loss to the DIF. Recommendations in the summary reports will address the FDIC’s
    supervision of the institutions, including implementation of the PCA provisions of
    section 38.


BACKGROUND

    SSB was a state-chartered, nonmember bank established in July 1996 by the NFID and
    insured by the FDIC effective July 1, 1996. SSB, which was headquartered in
    Henderson, Nevada:

           •   had 12 branch offices in Clark County, Nevada; 4 branch offices in Maricopa
               County, Arizona; and a total of 12 loan production offices in Nevada,
               California, Washington, Oregon, Utah, Colorado, and Florida;

           •   provided traditional banking activities within its marketplace; and

           •   specialized in commercial lending, with concentrations in commercial real
               estate (CRE), including acquisition, development, and construction (ADC)
               loans.

    SSB was wholly owned by its parent holding company, Silver State Bancorp, Henderson,
    Nevada, which was formed in 1999. SSB was the holding company’s major operating
    entity; however, in September 2006, Silver State Bancorp acquired Choice Bank,
    Scottsdale, Arizona, a state-charted, nonmember bank. In April 2008, Choice Bank
    merged with SSB. SSB’s local marketplace was, at one time, characterized by rapidly
    appreciating real estate values. However, real estate values experienced a significant
    downturn, negatively impacting the real estate construction industry and causing a severe
    deterioration in SSB’s asset quality.

    DSC’s San Francisco Regional Office and the NFID performed joint safety and
    soundness examinations of SSB, conducting six examinations from June 2003 through
    June 2008. Additionally, DSC conducted a visitation in March 2008. At the June 2008
    examination, as indicated in the figure that follows, SSB’s composite rating was




                                                  2
downgraded to 5,3 indicating extremely unsafe and unsound practices or conditions;
critically deficient performance, and inadequate risk management practices. Institutions
in this category pose a significant risk to the DIF and have a high probability of failure.

    SSB’s Key CAMELS Ratings

                         1


                         2
                                                                                                  Mar-04
        CAMELS Ratings




                                                                                                  May-05
                         3
                                                                                                  May-06
                                                                                                  May-07
                         4
                                                                                                  Jun-08

                         5



                             Composite   Management       Asset Quality       Liquidity

Source: OIG’s analysis of SSB’s Reports of Examination (ROE).



To address examination concerns, including apparent violations of laws and regulations
and inadequate risk management controls, the NFID and the FDIC requested SSB to
adopt a Bank Board Resolution (BBR), which the bank’s board of directors (BOD)
adopted in August 2005. The BBR included provisions related to the CRE loans,
including the following:

    •   Within 90 days of the adoption of the BBR, the BOD shall develop, adopt, and
        implement a well-defined business strategy that explicitly acknowledges
        concentration risk, the need to maintain an adequate capital structure, and a
        sufficient allowance for loan and lease losses (ALLL). In developing the strategy,
        the bank should perform an analysis of the potential effect of a downturn in the
        applicable real estate markets on both profitability and capitalization. The strategy
        should also include a contingency plan, clearly outlining the possible actions, by
        segment of the CRE market, that the bank should consider in response to adverse
        market conditions.



3
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
                                                      3
  •    Within 120 days of the adoption of the BBR, the BOD shall improve its oversight
       and monitoring of portfolio concentrations and, specifically, concentrations of a
       speculative nature. The oversight and monitoring of such concentrations shall
       include a process for conducting specific stress testing of its CRE portfolio in order
       to properly quantify the impact of adverse economic scenarios on the quality of the
       CRE portfolio, and ultimately, its profitability and capital position.

DSC subsequently terminated the BBR in September 2006 after the May 2006
examination, based, in part, on the examiner’s conclusion that CRE monitoring had
improved. Although the BBR was terminated, as discussed later in the report, these
issues were not effectively resolved. In addition, in August 2008, the FDIC drafted a
proposed Cease and Desist Order (C&D) to address SSB’s deteriorating condition.
However, the FDIC did not issue the C&D because the bank failed in September 2008
before the C&D could be placed.

Details on SSB’s financial condition as of June 2008 and for the 4 preceding calendar
years follow in Table 1.

Table 1: Financial Condition of SSB
Uniform Bank Performance Report        June 08          Dec 07       Dec 06       Dec 05     Dec 04
Total Assets ($000s)                   $1,957,120       $1,529,629   $1,042,185   $805,487   $700,490
Total Deposits ($000s)                 $1,733,091       $1,229,811    $863,838    $646,771   $576,322
Total Loans ($000s)                    $1,639,110       $1,420,126    $926,066    $658,459   $532,920
Net Loan & Lease Growth Rate              32.11%           53.23%       40.85%     23.40%     36.43%
Net Income (Loss) ($000s)               ($85,740)         $26,424      $22,513     $16,419     $9,269
Loan Mix, % Avg. Gross Loans:
Total Real Estate Secured Loans          90.27%           88.75%       87.97%      88.04%     85.61%
 Construction & Development (ADC)         66.63%           64.40%       46.72%     30.37%     21.39%
 Non-Farm Non-Residential (CRE)           18.67%           20.75%       34.81%     48.15%     53.66%
 Multifamily                               0.64%            0.72%        2.11%      3.67%      4.90%
 1-4 Family Residential – excluding        2.34%            0.71%        2.46%      4.69%      5.18%
 Home Equity Loans
 Home Equity Loans                         2.00%            2.16%        1.87%      1.16%      0.47%
Commercial & Industrial Loans              9.39%          10.82%       11.39%      11.28%     13.35%
Funding:
 Net Non-Core Dependency Ratio            50.23%           49.69%       25.52%     11.01%      9.33%
Examination Date                        June 08          May 07       May 06      May 05     Mar 04
Adv. Classified Items Coverage Ratio    178.59%          20.60%       18.49%      18.53%     29.89%
Source: OIG’s analysis of SSB’s Uniform Bank Performance Reports (UBPR) and ROEs.




                                                    4
RESULTS IN BRIEF

     SSB failed primarily due to bank management’s high-risk business strategy. SSB
     pursued aggressive loan growth, concentrating in higher-risk CRE loans, and, beginning
     in 2006, became increasingly dependent upon funding from high-cost and volatile
     sources. This business strategy, coupled with weak risk management practices and
     controls, left the bank unprepared and unable to effectively manage operations in a
     declining economic environment. As loan losses increased, earnings and capital eroded.
     SSB experienced a severe liquidity crisis as depositors withdrew their funds, and the bank
     was at significant risk of not being able to meet its obligations when it was closed by the
     NFID. Specifically:

     Management. SSB’s BOD allowed bank management to pursue a high-risk business
     strategy without adequate risk management practices and controls. Also two individuals
     dominated bank management and controlled lending operations, thereby weakening BOD
     oversight. In addition, certain compensation arrangements led to loan growth that was
     based on volume rather than quality. Management failed to effectively implement audit
     and examination recommendations or to ensure that, as the bank grew, the sophistication
     of the bank’s risk identification and monitoring systems also expanded to effectively
     identify, measure, monitor, and control bank operations and risks.

     Asset Quality. SSB concentrated and significantly grew its lending in higher-risk CRE
     loans in rapidly growing markets. Historically, the bank maintained a significant
     concentration in higher-risk CRE loans; however, from year end 2005 to year end 2006,
     SSB significantly altered the bank’s loan mix by aggressively growing the ADC loan
     portfolio. As a result, the bank went from a high-risk CRE loan profile to a higher-risk
     ADC loan profile. Furthermore, SSB did not establish appropriate concentration limits or
     controls to mitigate risk. In addition, SSB had liberal loan underwriting standards,
     ineffective loan administration procedures, poor loan risk management practices, and an
     inadequate ALLL. In March 2008, when examiners visited SSB as part of DSC’s
     Commercial Real Estate Lending Visitation Program (hereafter, CRE Lending Visitation
     Program), DSC noted SSB’s inappropriate use and renewal of interest reserves when the
     underlying real estate projects were not performing as expected.

     Liquidity. In 2006, SSB became increasingly dependent upon high-cost and volatile
     sources of funding, such as brokered deposits; time deposits of $100,000 or more;
     Internet deposits; high-rate core deposits; and Federal Home Loan Bank (FHLB)
     borrowings to fund asset growth. Use of these volatile funding sources increased the
     bank’s liquidity risk because such funding sources are subject to quick withdrawals in a
     deteriorating market or a reported decline in the bank’s financial position. According to
     FDIC personnel, it appeared that bank management did not understand the nature or level
     of risk that they created by using these volatile funding sources.

     Supervision. The FDIC could have exercised greater supervisory concern and taken
     additional action to help prevent the bank’s failure and/or to mitigate the potential level
     of losses incurred. Specifically, the FDIC identified SSB’s loan concentrations and
     funding sources as potential high-risk areas of concern in examinations completed as
                                                   5
    early as 2005. However, the FDIC took limited actions to mitigate the bank’s aggregate
    level of risk exposure. With respect to DSC’s CAMELS ratings, FDIC examiners
    assigned SSB a composite 2 rating as recently as the May 2007 examination and only
    first identified SSB as a potential supervisory concern during the March 2008 visit as part
    of the CRE Lending Visitation Program. Examiners did not downgrade the bank’s
    ratings until the following examination in July 2008–SSB’s last examination before the
    bank failed. Aside from placing a BBR in 2005, which included provisions related to
    CRE loan concentrations, the FDIC did not place any other supervisory or corrective
    actions against the bank.

    Based on our review of the FDIC’s Reports of Examination (ROE) and available
    corresponding working papers and discussions with FDIC and NFID personnel, we
    identified several concerns regarding the FDIC’s supervision of SSB. Specifically, DSC
    could have done more to:

        •   Recognize and/or analyze risk, set a proper tone in the ROEs, or appropriately
            consider risk in CAMELS ratings.
        •   Ensure that proper controls and risk limitation and/or mitigation strategies were
            established and appropriately implemented.
        •   Identify in a timely manner SSB’s increasing risk profile, including
            concentrations in targeted market areas, as a potential concern.
        •   Deal assertively with bank management on examination findings and
            recommendations.

    DSC conducted an internal analysis in late 2008 of the supervisory review process related
    to SSB and concluded that the CAMELS composite rating of 2 assigned at the 2007
    examination was appropriate. However, DSC also concluded that the bank’s capital and
    liquidity components should have been rated 3 rather than 2 at the 2007 examination and
    that the tone of the ROE was not consistent with the bank’s risk profile. Specifically,
    DSC stated in its analysis that “comments in the 2007 examination report could have
    been much more critical of management’s continued push to aggressively grow the CRE
    portfolio, to a great extent with non-core funding, and when [SSB’s] own stress test
    results were suggesting a downturn in SSB’s real estate markets was underway.”


MANAGEMENT

    Examinations in 2003 through 2007 resulted in a 2 rating for SSB management. At the
    last full-scope examination, dated June 2008, the rating was downgraded to a 4,
    indicating deficient BOD and management performance, risk management practices that
    were inadequate, and excessive risk exposure. By 2008, the examiners determined that
    the bank’s problems and significant risks had not been adequately identified, measured,
    monitored, or controlled and required immediate action by SSB’s BOD and management
    to preserve the safety and soundness of the institution.



                                                 6
SSB’s Management

     SSB’s management was a key factor in the failure of the institution. Specifically, SSB’s
     BOD created or permitted an environment that included: a high-risk business strategy,
     operations controlled by two dominant management officials, and weak risk-management
     practices. Furthermore, SSB management routinely failed to effectively implement audit
     and examination recommendations and to ensure that, as the bank grew, the
     sophistication of the bank’s risk identification and monitoring systems expanded to
     effectively identify, measure, monitor, and control bank operations and risks.

     High-Risk Business Strategy. SSB management operated the bank under a
     BOD-approved business operating plan. Nevertheless, SSB management used a high-risk
     business strategy. This strategy was evident in two primary areas: excessive growth in
     high-risk lending and a high-risk funding structure. With respect to lending, SSB
     exhibited uncontrolled growth and high concentrations in the highest-risk CRE products,
     liberal underwriting strategies, and inappropriate use of interest reserves.4

     Specifically, based on available Consolidated Reports of Condition and Income (Call
     Report) data, SSB grew from a $700 million bank in December 2004 to a $2 billion bank
     in June 2008 (reflecting an approximate 190-percent increase in total assets over a period
     of 42 months). The total asset growth is even more striking considering the growth in the
     concentration of risky ADC loans. SSB management grew this category of loans from
     21 percent of gross loans and leases in December 2004 to about 67 percent of such loans
     and leases in June 2008. Further, SSB employed a liberal underwriting strategy that
     relied mainly on liquidating the underlying loan collateral as opposed to requiring the
     borrower to provide other sources of repayment. Finally, bank management used interest
     reserve loans inappropriately for extending lending arrangements and for land loans.
     (These issues are more fully discussed in the Asset Quality section of this report.)

     SSB management also employed a high-risk funding structure, which centered on high-
     cost volatile deposits. With respect to SSB’s funding sources, while its core deposits
     grew from $534 million in December 2004 to $1.3 billion in June 2008 (an increase of
     140 percent), its non-core funding grew from $106 million to $1 billion over the same
     period (an increase of about 882 percent). Such a heavy reliance on non-core deposits to
     fund asset growth is a risky business strategy because it is generally recognized that such
     deposits are a more volatile source of funding. (These issues are discussed more fully in
     the Liquidity section of this report.)

     Dominant Bank Officials. Two key officials dominated SSB management.
     Specifically, the President and Chief Executive Officer (CEO) and the Executive Vice
     President (EVP) for Real Estate Lending controlled lending operations and drove funding
     4
      The FDIC’s Supervisory Insights article titled, A Primer on the Use of Interest Reserves, for Summer
     2008, states, in part, that “the use of interest reserves in the following situations may not be
     appropriate…loans on projects that have experienced development or construction delays…or are
     otherwise not performing according to the original loan agreement and have inadequate collateral support;
     and loans used to purchase real estate with no immediate or defined plans for development or
     construction….”
                                                         7
decisions. The CEO founded SSB along with the former bank Chairman who resigned in
January 2006. The CEO was not challenged by the BOD concerning the reasonableness
of his “vision” for the bank. Moreover, with the assistance of the EVP, the CEO was
responsible for SSB’s period of extensive asset growth; 29 percent in 2006 and
47 percent in 2007. Additionally, he changed the focus of the bank’s loan portfolio from
CRE lending to higher-risk ADC lending. ADC lending posses a greater level of risk
because there is more uncertainty in the eventual repayment of such loans – due to the
collateral dependency of the loans and the reliance on the completion and liquidation of
the related projects. From 2005 to 2007, SSB’s ADC loan portfolio grew from
30 percent to 64 percent of average gross loans and leases. This increasing concentration
in ADC loans is even more significant because total assets were also increasing during
this time.

Executive Compensation. A significant portion of the EVP’s compensation was based
on loans he originated. In addition to a salary, the EVP, along with his loan officers,
received a production-based incentive of 10 percent of any loan origination fees and a
3-percent annual bonus on their average outstanding balances. These compensation
arrangements did not emphasize loan quality. Bank management also relied on the EVP
to provide economic data and conduct presentations to the BOD related to the economy
and real estate market, which limited the objectivity of the information and analysis he
presented. According to the June 2008 ROE, it was quite unusual for an executive officer
to be paid a commission on the loans he originated. We consider executive compensation
programs that do not address asset quality objectives to be a significant concern, which
we will address in our summary reports covering multiple bank failures.

Risk Management Controls. SSB’s weak risk management practices were exhibited in
several areas:

•   Systems of Internal Control: SSB did not ensure that adequate risk management
    controls were implemented and followed and did not implement corrective actions in
    a timely manner to adequately address risk management control deficiencies
    identified by examiners and auditors related to loan documentation, administration,
    and monitoring. For example, examiners reported in 2008 that internal controls over
    construction loan funding were weak. During a review of construction loans,
    examiners determined that almost all of the construction withdrawals were funded
    without accompanying inspection reports addressing progress on the project. Further,
    the examiners determined that two loans for constructions of pre-sold homes had been
    approved and partially funded (approximately $3 million in construction loan
    withdrawals) even though the bank’s inspection report indicated that no construction
    on the homes had begun. The bank placed all three loans in a non-accrual status and
    began foreclosure actions. SSB had established written procedures for the
    administration of construction loan withdrawals; however, management did not
    identify the deficiencies due to significant control weaknesses over construction loan
    withdrawals.




                                            8
•   Assessment of the Economic Environment: SSB did not implement a systematic
    economic review and analytical process that would have been appropriate for the
    bank’s size, complexity, and risk profile. Specifically, SSB did not perform a
    systematic economic review that utilized key market indicators and that were tied to
    specific strategic action plans in case of deteriorating conditions. The bank’s analysis
    of the economy appeared to be limited to reviewing various economic reports,
    forecasts, and articles and discussing economic events and the potential impact the
    economy could have on the bank’s markets.

    Based on the May 2006 examination, examiners noted that the bank did not document
    its analysis of the economy and recommended that the BOD be provided a periodic
    written analysis of the general economic, banking, and real estate markets of the
    bank’s trade areas. In addition, examiners recommended that the bank evaluate
    approved CRE concentration limits in relationship to current and expected market
    conditions and acceptable risk tolerance levels. However, this recommendation was
    not effectively implemented. Although bank management monitored and reported on
    the deterioration in the bank’s primary markets and general economy, it took no
    effective actions to limit or mitigate the potential negative economic effects on the
    bank.

•   Methodology for Calculating the Bank’s ALLL: SSB’s ALLL methodology was
    inadequate. Specifically SSB management did not establish appropriate loan
    administration procedures or maintain a sufficient ALLL. For example, in evaluating
    management’s adjustments for environmental factors for the 5-month period ending
    May 31, 2008, examiners determined that the increases did not adequately reflect the
    significantly increased risks associated with the level and trend in loan payment
    delinquencies and the deterioration in local economic and industry conditions.
    Because the bank’s risk management and loan administration practices were
    inadequate, the BOD was slow to recognize the increasing risk in SSB’s loan
    portfolio and lending program as residential real estate values started to decline.

•   Stress Testing: As the bank’s risk profile grew, management did not implement an
    adequate stress testing model to identify, measure, monitor, and control risk. In 2008,
    the significant deterioration of the overall condition of the bank indicated that bank
    management was not adequately able to quantify the level of risk associated with the
    business operating plan. For example, although CRE concentrations represented 990
    percent of Tier 1 Capital in May 2008, stress testing simulations outlining the current
    level of the deterioration in real estate values at that time were understated.
    Specifically, stress testing for the bank’s CRE worst-case scenario assumed that
    values for commercial and residential properties could fall by 35 percent. However,
    examiners determined that values for commercial and residential properties in the
    Phoenix and Las Vegas markets had actually fallen 40 to 60 percent. Therefore,
    SSB’s worst-case scenario of a decrease of 35 percent (over an extended period)
    underestimated the actual deterioration in market value by up to 25 percentage points.
    In summary, management did not adjust its assumptions and adequately monitor the
    bank’s CRE concentrations to reflect current and expected market conditions.

                                             9
We consider inadequate risk management controls to be a significant concern, which we
will address in our summary reports covering multiple bank failures.

Implementation of Examiner and Auditor Recommendations. SSB management’s
failure to effectively implement examiner recommendations may have contributed to the
severity of the loss to the DIF. Specifically, over several examination cycles, SSB did
not effectively implement examiner recommendations related to the bank’s repetitive
contraventions of the FDIC’s Rules and Regulations related to loan-to-value (LTV) limits
and policy considerations; lack of loan policies for limits on the use of interest reserves;
and failure to identify, measure, and monitor loan concentrations and interest reserves, as
follows:

•   Bank management failed to comply with the FDIC’s Rules and Regulations Part 365,
    Real Estate Lending Standards, Appendix A, Interagency Guidelines for Real Estate
    Lending Policy. In particular, management did not establish a system of controls to
    adequately ensure that the bank’s LTV ratios were correct when underwriting loans.
    At the June 2008 FDIC examination, examiners identified three loans in which funds
    were extended to the borrower in excess of the appropriate LTV guideline. The loan
    officer used the incorrect appraised value to calculate the LTV for these loans. In
    addition, bank management did not notify the BOD of the exceptions for these loans
    as required by Part 365. Examiners also identified similar problems associated with
    the bank’s LTV compliance and reporting during the March 2003 and March 2004
    examinations. The May 2006 examination determined that bank management failed
    to establish adequate loan policies and limits for the use of interest reserve loans.
    Related concerns were also identified at the May 2007 and June 2008 FDIC
    examinations.

•   Examiners reported that SSB was maintaining substantial concentrations in CRE and
    higher-risk ADC loans. In 2005, the NFID and the FDIC requested SSB to adopt a
    BBR that contained provisions related to maintaining an adequate capital structure
    and sufficient ALLL, developing a contingency plan for adverse market conditions,
    and improving the bank’s oversight and monitoring of its concentrations – including
    stress testing and establishing meaningful concentration limits. However, in
    subsequent examinations, examiners continued to report concerns with the bank’s
    concentration levels and with the need for management to assess the appropriateness
    of internal risk limits and to enhance monitoring and reporting practices for
    concentrations—including stress testing and economic analysis.

•   For the 2006, 2007, and 2008 examinations, examiners reported that SSB’s interest
    reserve policy did not address limits on the use of interest reserves and that
    management had not established a system to monitor the volume of loans being paid
    with interest reserves. Examiners recommended that management enhance risk
    identification and monitoring procedures by establishing a system to monitor and
    report the volume of loans with interest reserves and establish standards or
    benchmarks to monitor those reserves.


                                             10
     Senior management’s failure to address these concerns contributed to the bank’s increase
     in adversely classified loans and, ultimately, to the failure of the bank.


Examiner Concerns and Recommendations Regarding Management

     Examiner concerns with SSB’s BOD and management were identified as early as January
     2002 and continued through June 2008. As summarized in Table 2, which follows,
     examiners expressed concern about the bank’s concentrations in CRE and higher-risk
     ADC loans, high-loan growth, underwriting and loan administration weaknesses, and
     apparent violations or contraventions of the FDIC’s Rules and Regulations. In addition,
     the FDIC’s ROEs recommended that bank management improve its measuring,
     monitoring, and reporting of concentrations; internal routines and controls; loan
     underwriting and administration; and compliance with the FDIC’s Rules and Regulations.
     The ROEs for examinations in 2006 through 2008 also recommended that management
     improve the monitoring and reporting of its economic environment and the policies and
     procedures covering interest reserve loans.




                                                11
Table 2: Examiner Comments and Recommendations Regarding Management
                Examiner Comments                                       Examination Dates
                                                          Mar Mar May May May                         June
                                                          2003 2004 2005 2006 2007                    2008
Overall conclusion on BOD and management performance
   • BOD and management are satisfactory/effective         9        9       9        9        9
   • Appropriate internal controls are in place            9        9       9        9        9
   • Failure to adequately identify, measure, monitor,                                                 9
     and control risks
High-Risk Business Strategy
   • Concentrations in higher-risk ADC lending             9        9       9        9        9        9
   • Significant loan growth noted – however, not          9        9       9                          9
     described as uncontrolled
   • Weak loan underwriting and administration             9                         9                 9
   • High-risk funding strategy                                                                        9
Risk Management Practices
   • Inadequate system of internal controls                                                            9
   • Weak oversight of economic environment                                                            9
   • Lack of responsiveness to examiner and auditor
     recommendations
   • Inadequate or enhancement needed for the ALLL         9       9                                   9
     methodology
Dominant Management Team
   • CEO and EVP for Real Estate Lending dominated                                                     9
     management
   • Unusual executive compensation                                                                    9
Compliance with laws and regulations
   • Apparent contravention of Part 365 – Appendix A       9       9                 9         *       9
     (related to LTV limits and interest reserve loan
     standards and limits)
   • Apparent violation of Part 323 – Appraisals           9       9                 9
   • Repeat contravention of Part 365 noted                        9
Examiner recommendations
   • Improve measuring, monitoring, and reporting of               9        9        9                 9
     concentrations
   • Improve monitoring and reporting of economic                                    9                 9
     environment
   • Correct violations of laws and regulations (as        9       9                 9                 9
     identified above)
   • Improve policies for interest reserve loans                                     9        9        9
   • Improve/enhance loan underwriting and                 9       9                 9
     administration
   • Improve internal routines and controls                9                9        9        9        9
Source: OIG’s analysis of SSB’s ROEs.
* Note: ROE comments noted that the bank did not have a system in place to monitor the volume of loans
being paid with interest reserves and that management did not establish policies with interest reserve
standards or benchmarks to monitor those reserves. However, the examiner did not cite an apparent
contravention of Part 365, Appendix A.




                                                    12
Regulatory Supervision Related to Management

      Examiners assigned management a 2 rating for examinations in 2002 through 2007. At
      the June 2008 examination, management was downgraded to a 4 rating. We concluded
      that the regulatory supervision of SSB could have been improved. The following
      summarizes the areas in which improvements could have been made:

             •   High-risk Business Strategy: From the March 2003 examination until the final
                 examination in June 2008, examiners noted SSB’s concentrations in CRE and
                 higher-risk ADC lending. This strategy was consistently mentioned in the ROEs;
                 however, supervisory action was limited to recommendations for SSB to improve
                 the bank’s measuring, monitoring, and reporting of its concentrations in risky
                 lending. Excluding the June 2008 examination, examiners made no
                 recommendations related to limiting concentrations or mitigating the bank’s risk
                 by requiring SSB to increase its capital levels. Although SSB’s reliance on
                 higher-cost and volatile (higher-risk) funding had been noted in several
                 examinations, only the June 2008 ROE mentioned concern in this area.
                 Examiners could have downgraded capital or liquidity component ratings,
                 recommended specific concentration limits, and/or specified the need for higher
                 capital levels earlier.

             •   Dominant Management: Our discussions with examiners showed that they
                 were aware of the dominant nature of the CEO and EVP for Real Estate Lending;
                 however, dominance was not addressed until the June 2008 ROE. Specifically,
                 the June 2008 ROE noted that two of the bank’s controlling shareholders (with
                 35.5 percent of the holding company’s shares) provided “very strong” support to
                 the bank’s former CEO. The examiners also reported that the BOD, as a whole,
                 did not sufficiently challenge the reasonableness of the CEO’s vision for the bank
                 and that the CEO allowed the EVP for Real Estate Lending unsupervised control
                 of lending operations. As a result, the EVP led the significant growth of the CRE
                 and higher-risk ADC loan portfolio. Based on the bank’s risk profile and
                 significant growth strategies, examiners should have shown greater and more-
                 timely supervisory concern regarding the dominance of the bank by two
                 individuals.

             •   Compensation: Examiners did not address any commission-based
                 compensation arrangements until noting in the confidential section5 of the June
                 2008 ROE that the EVP was paid a commission on the loans he originated, which
                 the examiners considered an unusual practice. In addition, DSC senior
                 management stated that neither the bank’s senior management nor BOD
                 disclosed to examiners that the EVP was receiving a commission, until the 2008
                 examination. Regardless, examiners should have shown greater and more-timely
                 supervisory concern for the SSB’s compensation arrangements.


      5
          The confidential section of an ROE is not shared with bank management.
                                                          13
    Examination guidance instructs examiners to consider executive compensation
    arrangements when assessing management. Examiner guidance on assessing
    bank compensation programs for reasonableness and appropriateness and for
    ensuring that bank compensation promotes behaviors that are consistent with
    portfolio objectives and risk tolerances is provided, in part, in the DSC
    Examination Manual; DSC’s Management and Internal Control Evaluation
    Examination Documentation Module; and DSC’s Regional Directors
    Memorandum entitled, Subprime Lending Examination Procedures (Transmittal
    00-004), dated January 24, 2000. Further, on November 12, 2008, the FDIC
    issued institution guidance in the form of a Financial Institution Letter (FIL)
    titled, Interagency Statement on Meeting the Needs of Creditworthy Borrowers
    (FIL-128-2008), which encourages banks to employ compensation structures that
    encourage prudent lending.

•   Risk Management Practices: Examiner comments and analysis concerning the
    bank’s economic risk management practices were lacking. Examiners routinely
    addressed (and responded favorably to) the ROE’s Risk Management Assessment
    question, “Are risk management processes adequate in relation to economic
    conditions and asset concentrations?” However, the examiners’ responses
    typically did not address the bank’s economic environment or how the bank
    planned to respond to a potential deterioration in its key market areas. In the
    May 2006 and May 2007 ROEs, examiner comments noted that management
    discusses and monitors the economy and, in response, makes revisions to lending
    products, strategies, and policies and the ALLL methodology. However,
    examiners did not identify, as a concern, the bank’s lack of a systematic review
    and analytical process that would have been appropriate for the bank’s size,
    complexity, and risk profile. As noted previously, SSB did not perform a
    systematic economic review that utilized key market indicators and that were tied
    to specific strategic action plans in case of deteriorating conditions.

    Based on our discussions with examiners, it was apparent that weaknesses in the
    Phoenix and Las Vegas markets were affecting asset valuations; however, no
    mention of the economic environment was made in the May 2007 ROE, the year
    preceding SSB’s failure. Furthermore, bank management ignored changing
    and/or deteriorating economic conditions, and the bank continued to grow even
    though key market indicators were deteriorating and other financial institutions
    were scaling back lending. As discussed earlier, examiners could have more fully
    reviewed and assessed the bank’s economic analysis and identified the lack of a
    systematic and analytical review of the economy.

•   Implementation of Examiner Recommendations: Generally, SSB promised
    corrective actions to identified deficiencies, and examiners generally followed up
    on recommendations at the next examination. However, as shown in Table 2
    earlier, the examiners reported the same concerns in several ROEs related to the
    bank’s measuring, monitoring, and reporting of concentrations and the economic
    environment; correction of apparent violations and contraventions; and

                                        14
              improvement of policies and procedures for interest reserve loans, loan
              underwriting, and loan administration. As a result, examiners did not assertively
              address examination findings that were repeated areas of concern. Continuing
              patterns of inadequate management practices should heighten the level of
              supervisory concern in order to ensure these findings are corrected in a timely
              manner.

             As noted earlier, examiners did not identify the repetitive nature of the bank’s
             noncompliance with the FDIC’s Rules and Regulations. Specifically, the March
             2003, March 2004, May 2006, and June 2008 ROEs noted concerns regarding
             apparent contraventions of Appendix A to Part 365 in relation to LTV limitations
             and interest reserve standards and limits. In addition, examiners cited apparent
             violations of Part 323, Appraisals, in several ROEs, including, for one loan,
             SSB’s failure to provide documentation that an appraisal had been reviewed and
             was in conformance with regulatory guidelines. Due to the significance and
             importance of these regulations, greater supervisory emphasis could have been
             placed on the bank’s failure to ensure full compliance.

      Overall, we concluded that earlier and more assertive attention to SSB’s management
      would have improved the regulatory supervision of the bank. In particular, when needed,
      a more progressively stringent supervisory tone was not presented in the ROEs, and
      actions were not taken.


ASSET QUALITY

      Examinations in 2003 through 2007 resulted in a 2 rating for asset quality. DSC’s March
      2008 CRE Lending Visitation Program showed that SSB’s asset quality had
      progressively worsened, indicating that the bank’s level of risk and problem assets were
      significant and inadequately controlled and subjected the bank to potential losses that
      threatened the viability of the institution. By the June 2008 examination, examiners rated
      asset quality a 5, which indicated that SSB’s asset quality was critically deficient and
      presented an imminent threat to the institution’s viability.


SSB’s Asset Quality

      SSB’s asset quality was a critical factor that led to the failure of the bank and material
      loss to the DIF. In particular, SSB’s asset quality deteriorated significantly as the real
      estate market and economy slowed. Within a short period, loan classifications increased,
      from $17.9 million in May 2007 to over $403 million in June 2008, as shown in Table 3,
      which follows. The bank’s adversely classified items coverage ratio (Adversely
      Classified Items to Tier 1 Leverage Capital and ALLL) increased from approximately
      21 percent to 179 percent. Also, based on a review of the bank’s net charge-offs from
      January 2001 to June 2008, losses were centered in the bank’s commercial and residential


                                                  15
 ADC loans. During this period, the bank’s net charge-offs for ADC loans totaled
 $39.5 million and represented 89 percent of the bank’s net charge-off history.

 Table 3: SSB’s Loan Classifications and ALLL
                                                   Asset Quality
                                               (Dollars in Thousands)
                               Loan Classifications                          Analysis of ALLL

                                                                                        Increase in
                                                           Total           ALLL           ALLL
 Examination                                             Classified     Calculated by   Required by
    Date        Substandard     Doubtful      Loss         Items            SSB         Examiners

    June 08        $384,793         0       $18,260      $403,053         $40,792         $20,208
    May 07         $17,929          0           0        $17,929          $11,641            0
    May 06         $14,097          0           $1       $14,098          $9,072             0
    May 05         $11,571          0         $34        $11,605           $6,650            0
Source: OIG’s analysis of SSB’s ROEs.



 CRE and Higher-Risk ADC Concentrations. SSB’s volume of CRE and higher-risk
 ADC loans constituted a very high-risk lending structure. The bank had always operated
 with concentrations in CRE and ADC loans; however, the total value and level of these
 loans began to grow significantly from December 2002 to June 2008. During that period,
 ADC loans, as a percentage of total capital, grew from approximately 135 percent to
 689 percent, as shown in Table 4 below. In addition, the bank’s growth in higher-risk
 ADC lending represented a significant change in the loan mix from CRE and commercial
 and industrial lending.

 Table 4: SSB’s Concentrations (Loans and Leases as a Percent of Total Capital)
    Period           ADC                1-4 Family          Commercial Real         Commercial and
    Ended       (Construction &         Residential            Estate                 Industrial
                 Development)              (%)                  (%)                      (%)
                      (%)
   June 08                 689.68                68.78                   187.92               93.63
   Dec 07                  524.63                22.13                   152.88               74.83
   Dec 06                  500.17                25.72                   192.11              101.26
   Dec 05                  246.57                49.78                   355.47               80.62
   Dec 04                  236.95                52.49                   432.03              101.61
   Dec 03                  173.64                35.39                   514.15              148.53
   Dec 02                  135.49                19.19                   526.66              168.72
   Dec 01                  130.86                35.70                   304.14              145.39
 Source: OIG’s analysis of SSB’s UBPRs.



 Interest Reserve Loans. SSB underwrote ADC loans with corresponding interest
 reserve loans/provisions, which allowed borrowers to fund their interest payments
 through a borrowing line with the bank. The May 2006 examination addressed the
 bank’s lack of appropriate interest reserve loan policies and controls. In particular, SSB’s
                                                 16
loan policy did not include standards for the acceptability of, and limits on, the use of
interest reserve loans. Furthermore, SSB had not established a system to measure,
monitor, and control the volume of loans being underwritten with interest reserves.
Based on ROE comments, as of March 31, 2007, approximately 31 percent of the
outstanding loan portfolio included interest reserves. Furthermore, during the FDIC’s
March 2008 visitation, examiners determined that approximately 60 percent of the ADC
loans included interest reserves that had not yet been exhausted. The value of such
interest reserve loans was over 325 percent of Tier 1 Capital. During the June 2008
examination, examiners determined that SSB was masking the borrowers’ inability to
meet their repayment obligations and was allowing borrowers to draw on the reserves
until they were depleted even if the intended real estate development project had ceased
and the primary source of repayment had been affected. In addition, interest reserve
loans were being modified and extended to bring potentially delinquent borrowers
current. As a result, the bank’s use of interest reserve loans was masking the
deterioration of the loan portfolio and the bank’s earnings.

The FDIC issued FIL-22-2008 on March 17, 2008, titled, Managing Commercial Real
Estate Concentrations in a Challenging Environment. The 2008 CRE FIL re-emphasized
the importance of strong capital and loan loss allowance levels and robust credit risk
management practices and recommended several risk management processes to help
institutions manage CRE and ADC concentrations. This guidance also articulated the
FDIC’s concern about interest reserves for ADC loans stating that examiners have noted
an inappropriate use of interest reserves when the underlying real estate project is not
performing as expected.

Allowance for Loan and Lease Losses. Given the bank’s higher-risk lending structure,
liberal underwriting standards, and relaxed loan administration procedures, the bank’s
ALLL and capital levels appeared to be marginal at best. Historically, SSB’s ALLL
fluctuated slightly at just above or below the bank’s peer group average. As of June
2008, the ALLL had significantly increased to 4.81 percent of total loans and leases.
Prior to June 2008, the examiners determined that the ALLL was adequate and justified
the allowance by the low level of adverse asset classifications, net losses, and loan
portfolio’s inherent risk. In June 2008, examiners reported that SSB’s ALLL was
inadequate and that SSB had not increased the allowance to adequately reflect the
significantly increased risks associated with the level and trend in delinquencies and the
deterioration in local economic and industry conditions. Additionally, from 2002 to
2007, the period of significant ADC loan growth, the bank’s capital levels generally
grew, but the total risk-based capital ratio remained below the bank’s peer group average.
Table 5, which follows, provides details on the bank’s ALLL and total risk-based capital
ratios in comparison to peer group averages and past-due ratios.




                                            17
      Table 5: SSB’s ALLL and Total Risk-Based Capital Ratios
        Period          ALLL to Total                Total Risk-Based              Total Past Due
        Ended          Loans and Leases              Capital to Risk-            Loans and Leases to
                                                     Weighted Assets               Total Loans &
                                                                                       Leases
                                                                                        (%)
                   Bank       Peer     PCT*      Bank       Peer     PCT*
                   (%)        (%)                (%)        (%)
       June 08      4.81       1.35       98       8.86     11.68         1                        16.10
       Dec 07       1.20       1.22       52      11.33     11.83        53                         1.17
       Dec 06       1.12       1.16       48      10.67     11.99        18                         0.02
       Dec 05       1.26       1.22       61      11.87     12.95        45                         0.29
       Dec 04       1.14       1.27       37      10.53     13.06        13                         0.75
       Dec 03        1.22      1.36       40       9.47     13.21         0                         1.45
       Dec 02        1.22      1.38       40       9.58     13.14         1                         2.44
       Dec 01       1.29       1.35       52       12.53     13.06        56                         2.36
       Source: OIG’s analysis of SSB’s UBPRs.
       * PCT represents the bank’s percentile ranking within the bank’s designated peer group average.



Examiner Concerns and Recommendations Regarding Asset Quality

      Examiners routinely concluded that SSB’s asset quality, ALLL, and capital levels were
      generally satisfactory until significant concerns were identified at FDIC’s March 2008
      visitation and June 2008 examination. In addition, since March 2003, examiners
      routinely reported on the bank’s increasing concentration in CRE and higher-risk ADC
      loans, and examiners made recommendations to improve the identification, measuring,
      monitoring, and reporting of the concentrations. However, examiners did not make
      recommendations to limit the level of the concentrations or to mitigate the degree of risk
      taken by increasing capital levels until the June 2008 examination. Further, the bank’s
      use of interest reserve loans and the lack of appropriate policies and controls over these
      types of loans were first noted in the May 2006 ROE. However, examiners did not raise
      significant concerns on how these assets were being used and controlled until the June
      2008 examination. Table 6, which follows, shows areas of examiner comments and
      recommendations related to SSB’s asset quality.




                                                             18
Table 6: Examiner Comments and Recommendations Regarding Asset Quality
          Examiner Comments                               Examination and Visitation Dates
                                            Mar         Mar   May      May     May      Mar     June
                                            2003        2004  2005     2006    2007 2008*       2008
Overall conclusion on SSB Asset Quality
  • Generally satisfactory                 9       9     9              9       9
  • Deteriorating loan quality and                                                       9       9
    increasing adverse classifications
  • Critically deficient                                                                         9
CRE and ADC concentrations
  • Loan portfolio was concentrated in     9       9     9              9       9        9       9
    higher-risk CRE loans
  • Concentrations not adequately                        9              9                9       9
    measured, monitored, and reported
  • Economic downturn is impacting the                                                   9       9
    bank’s loan portfolio and risk profile
Interest Reserve Loans/Provisions
  • Inadequate policy for interest reserve                              9       9        9       9
    loans
  • Loans masking delinquencies                                                          9       9
  • Inappropriate underwriting and product                                                       9
    utilization
  • Inadequate measuring and monitoring                                                          9
    systems
Allowance for Loan and Lease Losses and Capital Adequacy
  • Capital was adequate based on PCA                    9              9       9
    capital designation of “Well
    Capitalized”
  • Inadequate reserve allocation for                                                            9
    environmental risk factors
  • ALLL methodology needs                         9                                             9
    improvement
  • ALLL was inadequate                                                                  9       9
Assessment of risk management practices
  • Risk management practices are                  9     9              9       9        9       9
    inadequate or need improvement
  • Loan documentation and underwriting    9       9                    9                        9
    needed improvement
Examiner recommendations
  • Improve measuring, monitoring, and             9     9              9                9       9
    reporting of concentrations
  • Develop CRE Business Strategy Plan                   9                                       9
  • Improve policies for interest reserve                               9       9                9
    loans
  • Improve ALLL methodology                       9                                             9
Source: OIG’s analysis of SSB’s ROEs.
* In March 2008, DSC conducted a visitation as part of its CRE Lending Visitation Program. SSB was
included in the visitation program based on a request from the FDIC’s Field Office Supervisor.




                                                   19
Regulatory Supervision Related to Asset Quality

      SSB’s concentrations, use of interest reserve loans, and determinations of ALLL and
      capital adequacy should have warranted greater supervisory concern long before the
      bank’s asset quality and financial positions began to deteriorate. Furthermore, DSC
      failed to adequately pursue corrective actions during its examinations of SSB in order to
      ensure that SSB management corrected repeat deficient practices related to CRE and
      higher-risk ADC concentrations and the use of interest reserves.

      Loan Concentrations. Examiners identified SSB’s loan concentrations as a potential
      high-risk area of concern in examinations completed as early as March 2003.
      Nonetheless, DSC took limited actions to mitigate the bank’s aggregate level of risk
      exposure. Rather than assessing SSB’s aggregate concentration risk, examiners appeared
      to have placed more emphasis on breaking down the concentration into various categories
      to demonstrate mitigated risk through apparent diversification. A BBR was adopted in
      2005, which included provisions related to the bank’s CRE loan concentrations.
      Specifically, in the BBR, SSB agreed to develop and implement a well-defined business
      strategy that explicitly acknowledged concentration risk, improve the bank’s oversight
      and monitoring of portfolio concentrations, and conduct a stress test of the loan portfolio.
      Subsequently, DSC terminated the BBR based on the May 2006 examination view that
      the bank’s CRE concentration monitoring had improved. However, in the May 2006
      examination, examiners continued to note deficiencies with the bank’s ability to monitor
      and report on the bank’s concentrations. The May 2006 examination also noted that the
      level of ADC concentrations required continued scrutiny.

      Despite repeated assurances by management that it would take corrective actions, no
      comprehensive action was taken. As a result, the ROEs noted that continued deficiencies
      existed in the bank’s monitoring and reporting processes for concentrations. Given the
      repetitive nature of the examiners’ concerns, examiners could have questioned more
      closely management’s ability to effectively manage its concentrations. Examiners could
      have presented their findings related to CRE and higher-risk ADC lending concentrations
      as repeated areas of concern in order to heighten the level of management concern and to
      encourage action.

      Based on our discussions with FDIC and NFID examiners, we concluded that additional
      supervisory guidance and training may be needed on assessing a bank’s concentrations
      and in formulating recommendations or other supervisory actions that either limit the
      risks posed by a bank’s concentration levels or ensure that other mitigating controls or
      factors are in place. We consider loan concentrations without adequate risk management
      controls to be a significant concern, which we will address in our summary reports
      covering multiple bank failures.

      Interest Reserve Loans. SSB had engaged in ADC lending before the March 2003
      examination; however, examiners did not express concern regarding the bank’s use of
      interest reserve loans until the May 2006 examination. As a result, it appears that
      examiners did not identify the bank’s lack of appropriate controls to use and track interest

                                                   20
reserves until the economy and financial condition of the bank started to deteriorate.
Furthermore, at the May 2006 examination, examiners identified the bank’s lack of
adequate policies and controls in contravention to Part 365, Appendix A, Interagency
Guidelines for Real Estate Lending Policy. However, examiners did not take assertive
corrective action when the bank repeatedly failed to implement appropriate policies and
controls – especially given the fact that the use of interest reserves was integral to the
bank’s main product line of ADC lending. As a result, examiners expressed repeated
concerns—but did not identify them as repeated areas of concern—and made
recommendations in the ROEs for the May 2007 and June 2008 examinations to amend
the bank’s loan policy. SSB failed to address the issue in any significant manner, and the
bank’s continued use of interest reserves masked the deterioration of SSB’s loan and
earnings performance.

Examiners performed an assessment of the quality of the bank’s earnings performance
without analyzing the level of interest income that was derived from interest reserve
loans. Although the bank may have accounted for the interest income correctly, the
borrowers had not made interest payments. As a result, the certainty of the bank’s receipt
of such interest, through the borrowers’ payoff of the loans, was not assured. Examiners
could have recast the bank’s earnings performance based on the amount of interest
income that was actually received and then measured the potential risk to earnings of
interest reserves. We consider inadequate controls over the use and reporting of interest
reserves to be a significant concern, which we will address in our summary reports
covering multiple bank failures.

ALLL and Capital Adequacy. Examiners repeatedly reported that the bank’s ALLL
and capital levels were adequate. However, the bank and examiners did not note
increased concern related to the sufficiency of the ALLL and capital based on the aging
and deteriorating economic expansion, changing loan product mix, and significant loan
growth in ADC lending. Examiners also did not note increased concern for capital ratios
that were consistently maintained at a level that was below their peer group average (by
50 to 374 basis points).

Environmental factors are one of several areas of consideration that examiners review to
determine the adequacy of ALLL and capital. The ROEs and examination workpapers
provided limited analysis and review of the bank’s environmental factors in determining
the adequacy of the bank’s ALLL and capital levels. Although the bank’s ALLL
methodology addressed certain environmental factors, examiners did not provide a
documented analysis of the adequacy or appropriateness of the bank’s environmental
factors. Based on our review of the bank’s ALLL calculation (as presented in the May
2007 examination workpapers), examiners did not assign risk weights to some factors, or
differences to the factors, for variances by product line. Ultimately, bank management is
responsible for determining and supporting the appropriateness of the bank’s ALLL, and
examiners are responsible for reviewing management’s methodology for appropriateness.
However, examiners typically stated that they found it difficult to review for, and argue
against, the reasonableness of a bank’s assigned risk weights if a bank had any type of
support.

                                            21
      Based on our discussions with FDIC and NFID examiners and senior DSC management,
      the bank should have been required to maintain a significantly greater level of capital
      than the level it maintained. For example, the NFID Commissioner stated that the bank’s
      total equity capital ratio should have been significantly higher. Similarly, senior DSC
      regional management indicated that they now expect banks to maintain more capital
      based on their risk profile. Furthermore, as previously stated, DSC’s internal analysis of
      its supervision of SSB concluded that the May 2007 examination capital rating should
      have been a 3 rather than a 2 and that the tone of the ROE was not consistent with the
      bank’s risk profile. DSC’s analysis concluded that although a composite 2 rating was
      appropriate, a 3 rating should have been assigned to capital based on the bank’s elevated
      risk profile and wholesale funding and concentration levels. We consider the
      determination of capital and ALLL adequacy to be a significant concern, which we will
      address in our summary reports covering multiple bank failures.


LIQUIDITY

      Examinations in 2003 through 2007 resulted in a 1 or 2 rating for liquidity. At the last
      full-scope examination, dated June 2008, the rating was downgraded to a 5, indicating
      that SSB’s liquidity levels or funds management practices were so critically deficient that
      the bank’s continued viability was threatened. By 2008, examiners determined that the
      bank required immediate external financial assistance to meet maturing obligations or
      other liquidity needs.


SSB’s Liquidity

      Liquidity represents the ability to fund assets and meet obligations as they become due.
      SSB relied on high-cost sources of funding to support its asset growth. The increased
      interest expense associated with these funding sources reduced earnings. SSB’s volatile
      liability dependence and lack of available liquidity were key factors in the failure of the
      institution. Specifically, SSB’s BOD utilized a high-risk strategy to fund CRE and
      higher-risk ADC loans while significantly restricting available liquidity. Furthermore,
      SSB’s BOD did not ensure that prudent operating limits and parameters were established
      or that sufficient mitigating measures were employed to limit the level of risk taken.

      Volatile Liability Dependence. A bank’s net non-core dependency ratio indicates the
      degree to which the bank is relying on non-core/volatile liabilities such as time deposits
      of more than $100,000; brokered deposits; and FHLB advances to fund long-term earning
      assets. Generally, the lower the ratio, the less risk exposure there is for the bank. Higher
      ratios reflect a reliance on funding sources that may not be available in times of financial
      stress or adverse changes in market conditions. SSB’s non-core/volatile funds and
      high-cost deposits represented a significant source of funding for the bank’s loan growth.
      In particular, as early as May 2006, the bank utilized and relied on various volatile
      funding sources such as deposits concentrated in a few large depositors, Internet deposits,
      high-rate deposits, and FHLB borrowings. However, the bank’s use of brokered deposits,

                                                  22
which began in the 4th quarter of 2006, significantly increased after the May 2007
examination. Overall, from December 2005 to June 2008, the bank became increasingly
dependent on high-cost and non-core funds, and the bank’s associated dependency ratio
significantly exceeded its peer group average in December 2007 (see Table 7).

  Table 7: SSB’s Non-Core Funding Sources and Net Non-Core Dependency Ratios
                               Non-Core Funding Sources                  Net Non-Core Dependency Ratios
                                 (Dollars in Thousands)                             (Percent)
  Period Ended        Time Deposits of     Brokered
                     $100,000 or More*     Deposits     FHLB                  SSB           Peer Group
      June 08                  $415,440      $594,218          $77,000              50.23          33.92
       Dec 07                  $218,574      $427,281          $84,000              49.69          29.32
       Dec 06                  $201,451      $190,308          $55,000              25.52          27.27
       Dec 05                   $80,462             $0         $54,000              11.01          22.29
       Dec 04                   $42,246             $0         $42,000               9.33          21.30
       Dec 03                   $61,737             $0         $47,000              22.87          19.93
       Dec 02                   $47,564             $0         $42,600              28.29          18.39
       Dec 01                   $40,193             $0         $24,100              17.82          18.14
Source: OIG’s analysis of SSB’s UBPRs.
*
  Time deposits of $100,000 or more may include brokered deposits.



SSB became more reliant on core deposits that exhibited “brokered deposit-like” traits
due to the interest rates paid for these deposits. The rates SSB paid on its Interest
Bearing Deposits and Other Saving Deposits began to increase and significantly
exceeded the bank’s peer group averages in 2004 and 2005. After 2005, the rates
continued to significantly exceed the peer group averages until June 2008. In addition,
the bank’s cost of deposits was often in the 90th percentile of its peer group average. As a
result of SSB’s reliance on brokered and other high-rate deposits and borrowings, when
the bank’s financial condition began to deteriorate, its funding sources began to
disappear.

Available Liquidity. From December 2004 through December 2007, SSB’s available
liquidity began to shrink as the bank funded an elevated level of net loans. In June 2008,
SSB’s available liquidity subsequently deteriorated beyond its ability to meet its future
obligations. The bank experienced a significant outflow of deposits, the bank’s FHLB
borrowing line was reduced (and fully extended), and unsecured federal funds borrowing
lines were closed. In addition, due to the recognition of loan losses, increasing provisions
to the ALLL, and increasing non-accrual loans, the bank’s liquidity was further strained,
and its capital deteriorated to adequately capitalized as of June 2008. As a result, the
bank was restricted from accepting and renewing brokered deposits; the interest rates it
could pay on certain deposits were also restricted. These circumstances prevented bank
management from utilizing its primary funding sources.



                                                  23
      In September 2008, before the bank was closed, the bank’s available liquidity consisted
      of cash and “due from” balances totaling $30.4 million, while brokered deposits totaled
      over $608.5 million. Further, the bank’s available secondary sources of liquidity, which
      totaled $114 million in March 2006 and $74 million in March 2007, were gone. Due to
      restrictions placed on the bank regarding acceptance or renewal of brokered deposits and
      limits on interest rates, available liquidity was insufficient to meet funding needs. Bank
      management was unable to raise additional capital and to sell off its assets without
      incurring significant losses. Table 8 shows SSB’s liquidity ratio in comparison to its peer
      group average.

                Table 8: SSB’s Net Loans and Leases to Total Assets Ratio
                       Period           Net Loans and Leases/Assets
                       Ended                       (%)

                                          SSB             Peer Group
                      June 08                   79.72            72.75
                      Dec 07                    91.73            72.12
                      Dec 06                    87.86            71.30
                      Dec 05                    80.71            69.42
                      Dec 04                    75.21            68.28
                      Dec 03                    78.99            65.89
                      Dec 02                    75.50            65.52
                      Dec 01                    57.22            65.71
                Source: OIG’s analysis of SSB’s UBPRs.



Examiner Concerns and Recommendations Regarding Liquidity

      From March 2003 to May 2007, examinations consistently determined that the bank’s
      overall liquidity risk management and funding positions were either adequate or strong.
      However, examinations did not always identify or discuss (individually or in the
      aggregate) the following potential sources of funding risk:
          • deposit concentrations in a few customers,
          • Internet deposits,
          • high-rate deposits, and
          • brokered deposits.

      The ROEs identified FHLB borrowings but did not discuss them as a potential source of
      funding risk. Examiners typically noted the following: management was not dependent
      on one particular funding source listed above, rates were cheaper than local core deposits,
      and accounts were monitored. For some examinations, examiners did not make specific
      mitigating comments. Examiner concerns over SSB’s funding positions were first
      reported at the last examination in June 2008, right before the bank failed. Even though a
      significant shift toward more volatile funding sources was evident throughout 2007, at
      the May 2007 examination, examiners did not assertively criticize the bank’s funding
      strategies and level of risk. However, at that examination, examiners did identify the
      following funding weaknesses:

                                                         24
   •   Management did not appropriately identify and report brokered deposits.
       Examiners determined that SSB did not accurately report brokered deposits in its
       March 2007 Call Reports. As a result, the examiners recalculated the net non-
       core funding ratio, as presented in the UBPR, from 25.4 percent to 44.2 percent.
       Examiners recommended that the bank amend its December 2006 and March
       2007 Call Reports to reflect the accurate level of brokered deposits.

   •   Management failed to comply with its approved policy funding limitation.
       Examiners provided no recommended action. Subsequently, SSB management
       increased the bank’s policy limitation for the net non-core funding ratio from
       25 percent to 40 percent.

   •   Management failed to provide adequate wholesale funding strategy
       guidelines and parameters or limits for various wholesale funding products.
       Examiners recommended that bank management expand the bank’s policies to
       address various funding sources (by setting prudent parameters) and to provide
       funding guidelines for various potential liquidity stress events. Management
       agreed to revise the bank’s Liquidity Risk Policy. However, the revisions made
       the bank’s policies and controls weaker. For example, management eliminated
       one available liquidity measure, increased the net non-core funding ratio, and
       established a liberal wholesale funding policy limitation. In particular, the policy
       allowed the bank to maintain a maximum ratio of 50 percent for wholesale
       funding sources to total assets. Examiners did not address these policy limitations
       at the subsequent examination in June 2008 but did report significant deficiencies
       with the bank’s liquidity and net non-core funding dependency positions and
       contingency liquidity plans.

At the last risk management examination in June 2008, examiners identified significant
concerns and criticized the bank’s overall liquidity risk management, funding positions,
available liquidity, and contingency liquidity plans. The examiners stated that the bank’s
liquidity position was critically deficient due to a dependence on wholesale funding
sources, a low level of available liquidity, the concentration of large depositors,
decreasing availability of borrowing sources, the inability to fully implement the bank’s
contingency liquidity plan, and continued significant loan growth. Furthermore,
examiners noted that the bank’s Chief Operating Officer did not fully understand the risk
of the bank’s funding strategies. Examiners made recommendations to (quantifiably)
improve the bank’s available liquidity and to reduce the bank’s dependence on volatile
deposits. Management agreed to increase available liquidity by increasing brokered
deposits – thereby ignoring the recommendation to reduce volatile deposits.

Table 9, which follows, includes examples of examiner comments and recommendations
on liquidity.




                                            25
Table 9: Examiner Comments and Recommendations Regarding Liquidity
                      Examiner Comments                                               Examination Dates
                                                                        Mar    Mar       May     May    May    June
                                                                        2003   2004      2005    2006   2007   2008
Overall Conclusions on Liquidity
  • Strong or satisfactory                                               9      9         9      9       9
  • Adequate risk management: identifies, measures, monitors,            9      9         9      9       9
    and controls
Non-core Funding Sources
  • Overly reliant on potentially volatile funding sources                                                      9
  • Increasing reliance on non-core funding sources                      9                               9      9
  • Internet deposits used as a funding source                                  9                9              9
  • Brokered deposits used as a funding source                                                           9      9
  • High-rate deposits used as a funding source                                                  9
  • Deposits concentrated in a few large depositors                      9                9      9              9
  • FHLB borrowings used as a funding source                             9      9         9      9              9
Available Liquidity
  • Critically deficient or declining levels of liquidity                                                       9
  • Low level of available liquidity                                                                            9
Contingency Liquidity Plans
  • Sufficient secondary sources of funds to meet                        9      9         9      9
    anticipated/unanticipated needs
  • Internet deposits serve as a secondary source of funds               9
  • Non-pledged U.S. Treasury securities serve as a secondary                             9      9
    source of funds
  • Unused borrowing lines serve as a secondary source of funds          9      9         9      9
  • Inability to fully implement contingency liquidity plans: use                                               9
    of brokered deposits, secured and unsecured borrowing lines,
    and loan sales
Examiner recommendations
  • Re-establish the bank’s Funding Sources and Uses Report                                       9
  • Expand Liquidity Risk Policy to adequately address                                                   9
    wholesale funding strategies, parameters, and risk limits (set
    prudent parameters for Internet deposits, borrowings, and
    other wholesale funding strategies)
  • Expand the bank’s contingency liquidity plans to include                                             9
    discussions and funding guidelines for various potential
    liquidity stress events
  • Increase available liquidity, reduce total loans to total assets,                                           9
    develop a plan to significantly reduce the dependence on
    brokered and Internet deposits
Source: OIG’s analysis SSB’s ROEs.




                                                       26
Regulatory Supervision Related to Liquidity

    Examiners performed an assessment of liquidity at each examination, documented an
    individual liquidity component rating, and provided an overall conclusion for the
    adequacy of the bank’s liquidity and risk management practices. However, the bank’s
    policies, lack of development and implementation of contingency liquidity plans, and
    reliance on non-core/potentially volatile funding sources should have warranted greater
    supervisory concern.

    Supervisory Guidance. The DSC Examination Manual states that liquidity is rated
    based upon, but not limited to, examiner assessment of the following:

       •   The adequacy of liquidity sources compared to present and future needs and the
           ability of the institution to meet liquidity needs without adversely affecting its
           operations or condition.
       •   The degree of reliance on short-term, volatile sources of funds, including
           borrowings and brokered deposits, to fund longer-term assets.
       •   The trend and stability of deposits.
       •   The capability of management to properly identify, measure, monitor, and control
           the institution’s liquidity position, including the effectiveness of funds
           management strategies, liquidity policies, management information systems, and
           contingency funding plans.

    In addition, the manual states that each institution’s liquidity policy should have a
    contingency plan that addresses alternative funding if initial projections of funding
    sources and uses are incorrect or if a liquidity crisis arises.

    The DSC Examination Manual also states that examiners should recognize that UBPR
    liquidity ratio analysis might not provide an accurate picture of the institution’s liquidity
    position. Characteristics and behavior of asset and liability accounts should be
    scrutinized prior to analyzing liquidity ratios. For example, the UBPR User Guide
    defines the types of deposit accounts included in “core deposits.” Core deposits are
    generally considered stable, low-cost funding sources; however, at a particular institution,
    core deposit account balances might fluctuate significantly or might be more prone to
    run-off. For example, out-of-area Certificates of Deposit of less than $100,000 that were
    obtained from an Internet listing service are included in core deposits under the UBPR
    definition. However, such deposits should not be viewed as a stable funding source.

    Bank Policy Parameters and Contingency Liquidity Plans. ROEs for March 2003
    through June 2008 and the May 2007 and June 2008 examination workpapers showed
    that examiners did not thoroughly discuss and/or critique the bank’s established operating
    parameters and contingency liquidity plans before the bank began to experience a
    liquidity crisis. Examiners concluded on the adequacy of the bank’s liquidity risk
    management; however, only the ROE for the May 2007 examination detailed the bank’s
    policy parameters. In addition, none of the ROEs discussed the long-term feasibility of
    the bank’s business strategy (higher-risk earnings and funding structure) – which relied

                                                 27
on volatile deposits to fund CRE and higher-risk ADC loans. The May 2007 examination
workpapers provided a copy of the bank’s Liquidity Risk Policy and indicated that
examiners had assessed the bank’s performance relative to the bank’s policy limitations,
but the examiners did not assess the limitations for reasonableness. For example, the
examiners could have compared the limitations to peer group averages, which are shown
in Table 10 below.

Table 10: SSB’s Policy Limitations in Comparison to Peer Group Averages
                                                    SSB Policy Limitation   Peer Group Averages
                                                                            (for the Years Ending
                                                                              December 2003 to
                                                                               December 2007)
Short-Term Investments to Total Assets Ratio             1% or greater             3% to 5%
Available for Sale, Net Pledged, to Total Assets         5% or greater           Not available
Ratio
Loans to Deposits Ratio                                  110% or less           82% to 95%
Net Non-Core Funding Dependence                           25% or less           20% to 29%
Brokered Deposits to Total Deposits Ratio                 40% or less            2% to 6%
Source: OIG’s analysis of DSC’s examination workpapers and SSB’s UBPRs.



Based on a comparison of SSB’s policy limitations to the available peer group averages,
the bank’s policy parameters were more liberal than the financial positions taken by their
peers, except for the bank’s net non-core funding dependence ratio, which the bank’s
BOD increased to 40 percent after the May 2007 examination. In addition, the bank’s
Liquidity Risk Policy did not provide a detailed discussion of the bank’s contingency
liquidity plans but did list various alternative sources of funds, such as FHLB advances
and brokered deposits. This lack of policy was not criticized until the May 2007
examination. Additionally, the June 2008 ROE contained the only specific policy
recommendation that encouraged reducing the bank’s volatile liability dependency. The
recommendation required the bank to reduce its ratio of brokered and Internet deposits to
total deposits to 30 percent or less.

Aggregate Non-core Funding Analysis. Our review of the ROEs from March 2003
through June 2008 and the May 2007 and June 2008 examination workpapers showed
that examiners could have better identified the bank’s volatile liability dependence, as
impacted by Internet deposits, high-rate deposits, concentrations of large depositors, and
FHLB borrowings. In addition, examiners could have performed a more comprehensive
analysis of the bank’s non-core funding dependency by aggregating data and recasting
the bank’s financial ratios to depict the bank’s potential risk level. To ensure a proper
understanding of the nature and level of risk, examiners need to perform an appropriate
level of analysis. Without this analysis, the potential impact on the bank’s financial
position is unclear. If this analysis was included, then examiners could have provided a
more meaningful depiction of the bank’s level of dependency.

Based on our discussions with FDIC and NFID examiners, we identified that additional
supervisory guidance and training may be needed in assessing volatile liability
dependence and in formulating and pursuing recommendations that ensure appropriate

                                               28
    funding policy limitations and contingency liquidity plans are established in a timely
    manner. This is a significant area of concern, which we will address in our summary
    reports covering multiple bank failures.

    Capital Considerations. The ROEs for examinations completed for March 2003
    through June 2008 and the May 2007 and June 2008 examination workpapers relating to
    capital adequacy contained limited discussion and analysis of the appropriateness of
    existing capital based on the bank’s liquidity and funding risk profile. Neither these
    ROEs nor workpapers contained a qualitative nor quantitative analysis to indicate that
    examiners had assessed capital levels based on the level of risk resulting from the bank’s
    funding structure. Examiner comments were limited to the recognition of management’s
    assertions and intentions to maintain a well capitalized designation and did not address
    environmental factors. The last examination in June 2008 discussed the need to maintain
    (and exceed) the PCA capital category designation of well capitalized.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    The FDIC evaluated SSB’s capital position and assigned capital component ratings;
    however, SSB was not rated as undercapitalized prior to its failure. Therefore, the FDIC
    did not issue a PCA Directive to SSB. SSB received a capital component rating of 2 for
    each of the seven examinations conducted from November 2000 to May 2007. The
    capital component was downgraded to a 4 rating in the June 2008 examination. The
    reason provided for the downgrade in June 2008 was that the bank’s capital adequacy
    was deficient given the bank’s level of deteriorating asset quality and overall high-risk
    profile.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. In addition, the use of PCA directives depends on the accuracy of
    capital ratios in a financial institution’s Call Reports. SSB’s capital fell into the
    adequately capitalized category after its operations had begun to deteriorate because of
    problems related to management, asset quality, and liquidity. In particular, the ALLL
    was significantly underfunded, which overstated capital and underreported the
    deterioration of the loan portfolio.




                                                29
    The last UBPR for SSB, as of June 30, 2008, reported the following ratios:

       •   Tier 1 Leverage Capital       6.56 percent
       •   Tier 1 Risk-Based Capital     7.57 percent
       •   Total Risk-Based Capital      8.86 percent

    All of these ratios exceeded the regulatory minimums for PCA categorization of
    adequately capitalized. As a result, the FDIC did not implement the PCA provisions for
    undercapitalized institutions prior to SSB’s failure in September 2008.


CORPORATION COMMENTS AND OIG EVALUATION

    On March 25, 2009, the Director, DSC, provided a written response to the draft of this
    report. DSC’s response is presented in its entirety in Appendix 3. In its response, DSC
    agreed with the OIG’s assessment that SSB failed primarily due to bank management’s
    aggressive asset growth strategy concentrated in higher-risk ADC loans coupled with
    weak risk management practices and controls. It is important to note that we also
    identified SSB’s increasing dependency on non-core funding sources as a contributing
    factor in its failure.

    DSC stated that the 2007 examination of SSB indicated that SSB management had been
    receptive to examiner recommendations, implemented improved CRE monitoring
    practices, and adopted portfolio limits by product type. Also, DSC indicated that, during
    the 2007 examination, SSB developed a report to monitor the volume of loans with
    interest reserves. DSC further stated that significant developments after the 2007
    examination heightened SSB’s risk profile, contributing to its ultimate failure. These
    developments included using new capital and non-core funding to take on additional
    concentration risk in ADC lending during the same period that its real estate markets
    softened significantly. DSC indicated that SSB’s asset quality deteriorated quickly in
    2008, severely eroding capital and leading to its failure and material loss to the DIF.

    Nonetheless, our view remains that DSC could have exercised greater supervisory
    concern in the 2007 and prior examinations regarding SSB’s management, asset quality
    and liquidity and taken additional action to address both the conditions and risks in these
    areas. We found that bank management did not effectively implement key examiner
    recommendations over several examination cycles regarding such controls as loan-to-
    value limits, interest reserve policies, stress testing and establishing meaningful
    concentration limits, and maintenance of a sufficient ALLL and adequate capital
    structure. Examiners repeatedly identified some of these areas of concern. Regarding the
    developments cited by DSC after the 2007 examination, bank management significantly
    increased reliance on non-core funding, starting in 2006, and had ADC loan
    concentrations greater than 500 percent that same year in its real estate markets. More
    important, the risks associated with use of interest reserves absent appropriate policies,
    liberal underwriting and weak credit administration, poor risk management practices and
    an insufficient ALLL were identified in examinations prior to 2007 but were not fully

                                                30
addressed by bank management. Although the deterioration in the bank’s financial
condition was severe in 2008, the underlying risks were evident in the preceding years.

DSC’s response further stated that the composite rating at the 2007 examination was
determined to be accurate. DSC made this determination as part of its own internal
analysis in late 2008. It is important to note that the OIG did not conclude on specific
examination ratings. Rather, we evaluated the FDIC’s overall supervision of the
institution. We found that examiners could have performed additional analyses covering
such areas as SSB’s asset concentrations and funding strategies, ALLL and capital
adequacy, and aggregate non-core funding to further develop areas of risk. Also, DSC’s
response discusses the post-mortem analysis it performed of its supervision of SSB. This
analysis concluded that (1) the composite 2007 examination rating was accurate but that
several component ratings should have been lower and (2) the overall tone of the
examination report was not consistent with the bank’s risk profile. These results are in
line with our conclusions regarding the level of supervisory concern exhibited in the 2007
examination and the need for additional supervisory action.

DSC also stated that, in light of the economic deterioration and its impact on SSB and
other similarly situated institutions, the division has undertaken a number of initiatives,
listed in its response, related to the supervision of such institutions.




                                             31
                                                                                      APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency, reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38, in order to
      make recommendations for preventing such loss in the future.

      We conducted the audit from September 2008 to March 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it was not feasible to address certain aspects of the standards, as
      described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of SSB’s operations, which opened on
      July 1, 1996, until its failure on September 5, 2008. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the period 2002 to 2008.

      To achieve the audit objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports and examination work papers
                 prepared by the FDIC and the NFID from 2003 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Phoenix Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor, McGladrey & Pullen, LLP, Las
                       Vegas, Nevada.

                   •   Pertinent DSC policies and procedures.



                                                     32
                                                                                      APPENDIX 1


           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C.; San Francisco, California; and
                     Phoenix, Arizona.

                 •   FDIC examiners from the DSC Phoenix Field Office who participated in
                     SSB examinations.

           •   Met with officials from the NFID to discuss their historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               NFID’s supervision of the bank.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of SSB’s
      management controls pertaining to its operations as discussed in the finding section of
      this report. For purposes of the audit, we did not rely on computer-processed data to
      support our significant findings or conclusions. Our review centered on interviews,
      ROEs, and correspondence and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, manage and measure results to
      justify appropriations and authorizations, and design budgets that reflect strategic
      missions. For this material loss review, we did not assess the strengths and weaknesses
      of DSC’s annual performance plan in meeting the requirements of the Results Act
      because such an assessment was not part of the audit objectives. DSC’s compliance with
      the Results Act is reviewed in OIG program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with the provisions of PCA and limited tests to
      determine compliance with certain aspects of the FDI Act. Additionally, we assessed the
      risk of fraud and abuse related to our objectives in the course of evaluating audit
      evidence.




                                                    33
                                                                                 APPENDIX 2
                             GLOSSARY OF TERMS


          Term                                           Definition
Adversely Classified       Assets subject to criticism and/or comment in an ROE. Adversely
Assets                     classified assets are allocated on the basis of risk (lowest to highest)
                           to three categories:
                           •    Substandard,
                           •    Doubtful, and
                           •    Loss.

Allowance for Loan and     Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)        level that is adequate to absorb the estimated loan losses associated
                           with the loan and lease portfolio (including all binding
                           commitments to lend). To the extent not provided for in a separate
                           liability account, the ALLL should also be sufficient to absorb
                           estimated loan losses associated with off-balance sheet loan
                           instruments such as standby letters of loan.

Concentration              A concentration is a significantly large volume of economically
                           related assets that an institution has advanced or committed to a
                           certain industry, person, entity, or affiliated group. These assets
                           may, in the aggregate, present a substantial risk to the safety and
                           soundness of the institution.

Prompt Corrective Action   The purpose of PCA is to resolve the problems of insured
(PCA)                      depository institutions at the least possible long-term cost to the
                           DIF. Part 325 of the FDIC Rules and Regulations, 12 Code of
                           Federal Regulations, section 325.101, et. seq., implements section
                           38, Prompt Corrective Action, of the FDI Act, 12 United States
                           Code section 1831(o), by establishing a framework for taking
                           prompt supervisory actions against insured nonmember banks that
                           are less than adequately capitalized. The following terms are used
                           to describe capital adequacy: Well Capitalized, Adequately
                           Capitalized, Undercapitalized, Significantly Undercapitalized, and
                           Critically Undercapitalized.

Uniform Bank               The UBPR is an individual analysis of a financial institution’s
Performance Report         financial data and ratios that includes extensive comparisons to peer
(UBPR)                     group performance. The report is produced by the Federal Financial
                           Institutions Examination Council for the use of banking supervisors,
                           bankers, and the general public and is produced quarterly from Call
                           Report data submitted by banks.




                                            34
                       APPENDIX 3

CORPORATION COMMENTS




         35
     APPENDIX 3




36
     APPENDIX 3




37
                                                              APPENDIX 4
                ACRONYMS IN THE REPORT



Acronym                              Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
BOD       Board of Directors
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
C&D       Cease and Desist Order
CEO       Chief Executive Officer
CFO       Chief Financial Officer
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
EIC       Examiner-in-Charge
EVP       Executive Vice President
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
LTV       Loan-to-Value
NFID      Department of Business and Industry, Financial Institutions
          Division, State of Nevada
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
SSB       Silver State Bank
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institution Rating System




                                38
